APPENDIX A

United States v. Bullard
United States Court of Appeals for the Fifth Circuit
September 4, 2020, Filed
No. 20-10056 Summary Calendar
Reporter
819 Fed. Appx. 286 *; 2020 U.S. App. LEXIS 28253 **; 2020 WL 5352086

United States of America, Plaintiff—Appellee, versus Kelli
Renee Bullard, also known as Kelli Henager, also known as
Kelli Peterka, Defendant—Appellant.

Opinion
[*286] PER CURIAM:*

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:19-CR221-1.

Disposition: AFFIRMED.

Counsel: For United States of America, Plaintiff - Appellee:
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Northern District of Texas, Dallas, TX.
For Kelli Renee Bullard, also known as Kelli Henager, also
known as Kelli Peterka, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office. Northern
District of Texas, Lubbock, TX; Jaidee Serrano, Assistant
Federal Public Defender, Federal Public Defender's Office,
Northern District of Texas, Fort Worth, TX.

Judges: Before Barksdale, Graves, and Oldham, Circuit
Judges.

Kelli Renee Bullard pleaded guilty to one count of student
financial-aid fraud, in [*287] violation of 20 U.S.C. §
1097(a). The District Court sentenced her to, inter alia, a
within-Guidelines sentence of 60-months' imprisonment.
Bullard challenges only the substantive reasonableness of her
sentence, claiming the district court did not properly balance
the 18 U.S.C. § 3553(a) sentencing factors in reaching its
decision. Bullard contends the court focused too much on her
offense and criminal history, ignoring the mitigating
circumstances of her personal growth and rehabilitation [**2]
efforts. Her claim fails.
Although post-Booker, the Sentencing Guidelines are
advisory only, the district court must avoid significant
procedural error, such as improperly calculating the
Guidelines sentencing range. Gall v. United States, 552 U.S.
38, 46, 51, 128 S. Ct. 586, 169 L. Ed. 2d 445 (2007). If no
such procedural error exists, a properly preserved objection to
an ultimate sentence is reviewed for substantive
reasonableness under an abuse-of-discretion standard. Id. at
51; United States v. Delgado-Martinez, 564 F.3d 750, 751-53
(5th Cir. 2009). In that respect, for issues preserved in district
court, its application of the Guidelines is reviewed de novo;
its factual findings, only for clear error. E.g., United States v.
Cisneros-Gutierrez, 517 F.3d 751, 764 (5th Cir. 2008). As
stated, only substantive reasonableness is at issue.
Bullard's sentence is within the Guidelines sentencing range
and is therefore entitled to a rebuttable presumption of
reasonableness. United States v. Cooks, 589 F.3d 173, 186
(5th Cir. 2009) (citation omitted). To rebut the presumption,
Bullard must show "the sentence does not account for a factor

* Pursuant

to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

Brandon Beck

Page 2 of 2
819 Fed. Appx. 286, *287; 2020 U.S. App. LEXIS 28253, **2
that should receive significant weight, it gives significant
weight to an irrelevant or improper factor, or it represents a
clear error of judgment in balancing sentencing factors". Id.
(citation omitted). For obvious reasons, our review is highly
deferential to the district court's balancing of the § 3553(a)
factors. United States v. Simpson, 796 F.3d 548, 557 (5th Cir.
2015) (citing United States v. Campos-Maldonado, 531 F.3d
337, 339 (5th Cir. 2008)).
At Bullard's sentencing [**3] hearing, the district court
considered Bullard's assertions and supporting evidence
regarding her personal growth and rehabilitation. The court
balanced these mitigating circumstances with the § 3553(a)
factors, and concluded that, although an upward variance
from the Guidelines range would be warranted, a withinGuidelines sentence of 60 months' imprisonment was
appropriate because of Bullard's mitigating circumstances.
Bullard's assertions regarding the court's weighing of the §
3553(a) factors amount to a mere disagreement, which is
insufficient to rebut the presumption of reasonableness for a
within-Guidelines sentence. See, e.g., United States v. Ruiz,
621 F.3d 390, 398 (5th Cir. 2010) ("A defendant's
disagreement with the propriety of the sentence imposed does
not suffice to rebut the presumption of reasonableness that
attaches to a within-guidelines sentence.").
AFFIRMED.

End of Document

Brandon Beck

APPENDIX B

Case 4:19-cr-00221-A Document 48 Filed 01/10/20

Page 1 of 5 PageID 191

20-10056.51

Case 4:19-cr-00221-A Document 48 Filed 01/10/20

Page 2 of 5 PageID 192

20-10056.52

Case 4:19-cr-00221-A Document 48 Filed 01/10/20

Page 3 of 5 PageID 193

20-10056.53

Case 4:19-cr-00221-A Document 48 Filed 01/10/20

Page 4 of 5 PageID 194

20-10056.54

Case 4:19-cr-00221-A Document 48 Filed 01/10/20

Page 5 of 5 PageID 195

20-10056.55

